HHS/OIG, Audit - "Review of Medicare Part B Fee Schedule Amounts for
Semi-Electric Hospital Beds," (A-09-01-00109)
Department
of Health and Human Services
"Review of Medicare Part B Fee Schedule Amounts for Semi-Electric Hospital
Beds," (A-09-01-00109)
December 18, 2002
Complete
Text of Report is available in PDF format (518 Kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Prior OIG reports found that Medicare rates for rental of semi-electric hospital
beds were substantially higher than other payers rates. This final report points
out that Medicare rates for semi-electric hospital beds remain too high. We
found that billing codes of fee schedule amounts were excessive when compared
to combinations of other fee schedule amounts that should have been used in
many instances. We estimate that the use of two alternative billing code combinations
could result in savings of approximately $34.3 million per year, consisting
of $25.9 million in rental payments and $8.4 million for maintenance and servicing
fees. Moreover, Medicare beneficiaries, Medicaid programs, or supplemental insurers
could save approximately $8.6 million per year in coinsurance amounts. We recommended
that the Centers for Medicare and Medicaid Services (CMS) either; (1) reimburse
for semi-electric hospital beds based on the least costly alternative billing
codes, or (2) issue a final rule on the application of CMS "inherent reasonableness"
authority so that this authority can be used to adjust the fee schedule amounts
for these billing codes. The CMS stated a final rule on inherent reasonableness
will be published in the near future and indicated it will consider reviewing
payments for semi-electric hospital beds.